                                          Report No. AUD-08-013                                          August 2008

                                          Controls for Protecting the Confidentiality of
                                          Sensitive Email Communications
  Federal Deposit Insurance Corporation


Why We Did The Audit                      Audit Results

The FDIC Office of Inspector              KPMG found that the FDIC had a number of key controls in place to
General (OIG) contracted with             protect the confidentiality of sensitive email communications. Such
KPMG LLP (KPMG) to audit and              controls include, for example, a corporate policy governing the encryption
report on the FDIC’s controls over        of sensitive email communications; an enterprise-wide email encryption
the confidentiality of sensitive email    solution; background checks and confidentiality agreements for
communications. The results of this       administrators supporting the email infrastructure; and a security
audit will support the OIG in             awareness and training program addressing, among other things, the
fulfilling its evaluation and reporting   protection of sensitive email communications. DIT was also working to
responsibilities under the Federal        implement a number of additional email security control improvements
Information Security Management
                                          during the audit.
Act of 2002.

The objective of the audit was to         While such actions were positive, controls over administrator access to
assess the FDIC’s controls for            the email infrastructure needed to be strengthened. In addition, KPMG
protecting the confidentiality of         identified several potential control enhancements intended to further
sensitive email communications and        mitigate the risk of email exposure at the FDIC that DIT should assess for
to identify opportunities for             implementation.
mitigating risk where appropriate.

                                          Recommendations and Management Response
Background
                                          KPMG recommended that the Director, DIT, strengthen controls over
The FDIC uses email extensively,          administrator access to the email infrastructure and assess potential
internally and externally, to             controls enhancements identified during the audit. The FDIC concurred
exchange business information such        with both recommendations, and its planned actions are responsive to the
as open bank data, contract
                                          recommendations.
negotiations, personnel data, and
legal matters. Protecting the
confidentiality of sensitive email        Because this report addresses issues associated with information security,
communications requires a                 we do not intend to make public release of the specific contents of the
comprehensive set of security             report.
controls and sustained vigilance to
address current and emerging
security threats.

The FDIC’s Division of Information
Technology (DIT) has overall
responsibility for providing email
service to the Corporation and for
maintaining the FDIC’s email
infrastructure. The FDIC’s email
infrastructure requires
administrators (trusted individuals)
to perform necessary maintenance.
Because of the nature of their duties,
administrators have the ability to
access the unencrypted email
communications of others.
